                                              UNITED STATES OF AMERICA
                                      AGENCY FOR INTERNATIONAL DEVELOPMENT
-
                             OFFICE OF THE REGIONAL INSPECTOR GENERAL FOR WEST AFRICA


- UNITED    STATES ADDRESS                                                             INTERNATIONAL        A D D R E SS
            RIG DAKAR                                                                            RIG DAKAR
     AGENCY FOR INTERNATIONAL                                                              Cl” AMERICAN EMBASSY
           DEVELOPMENT                                                                     B.P. 49 DAKAR SENEGAL
-   WASHINGTON. D.C. 20521 - 2130	                                                               WEST AFRICA



-

                            James          Director
-
           From:            Lee Jewel1 III. Acting RIG/D&r

-                           Audit of                   Fiscal Year 1998 Financial Data
                            Report No.

-
           This memorandum is            report on the subject audit. We have considered your comments
           on the draft report and          changes as appropriate. Your comments are included in their
-
           entirety in Appendix

           Although this report         no      recommendations, two reportable audit issues
-
           discussed: 1) loan balances and 2) potential funds for deobligation. I appreciate the
           cooperation and courtesy extended to   staff during the audit.
-

            Background
-
            Beginning in fiscal year 1996, the Government Management                Act (GMRA) requires
            agencies to complete audited financial statements each             covering all accounts and
-           associated activities of   agencies. Fiscal year 1996 was the first year that the United States
            Agency for International Development (US AID) prepared consolidated financial statements
            that cover all accounts and associated activities of
-
                      management is required to compile financial statements and supplemental
            information. Management’s ability to develop and maintain adequate internal controls.
            accounting systems and procedures to generate reliable financial statements will be critical
            to the success of              annual reporting. These financial statements are to be prepared
            in accordance with the Office of                   and Budget          Bulletin No.        and
            the corresponding audit is to comply with scope and procedures set forth in OMB Bulletin
            No.         For fiscal year         audited financial statements are to be submitted to OMB
                later            1. 1 9 9 9 .
                                                                                                   -



                                                                                                   -
These financial statements are to not only report the financial position and results of
operations of the agencies. but are also to provide further information allowing Congress and
the public to assess management performance and stewardship of agency resources.                   -

At the end of the fiscal year on September                                  accounting records
indicated that it had obligated and expended in support of its active programs total of            -
approximately            million and           million. respectively.                  was
   ten sample missions selected          the Audit of the           Fiscal Year       Financial
Statements directed by the            Office of Financial Audits                in Washington.     -
              staff            financial audit procedures at                   in support of the
Audit of            Fiscal Year       Financial Statements for which the two objectives are
described below.                                                                                   -



Audit Objectives

The Office of Regional Inspector                     audited                     operations to

answer the following questions:


Did                    have documentation to support the disbursements made in the fourth
         -
quarter of fiscal year      accruals at September 30. 1998, and loans at June 30.

Were September 30,      balances reported in                      U 101 report for

appropriations  02 and 72X      properly stated and adequately supported?


Appendix I describes the audit’s scope and methodology.



Audit Findings                                                                                     -


Did                     have documentation to support the disbursements made in the
fourth quarter           year     accruals at September 30,      and loans at June 30,


                                                                                                   -
                 had documentation to support disbursements made in the fourth quarter of
fiscal year     and accruals at September           however, there were some problems
      the balances of loans at June 30,        which require the attention of                      -
management.

                  is not responsible for all loan transactions. Many of the loan transactions      -
(particularly U.S. dollar reimbursable loans) are accounted for by the Loan Management
Division of the Office of Financial Management (FM/LMD) in                             and
reported to                     This situation has contributed to number of differences in         -
      balances between                     and

                                               2



                                                                                                   -
     Irreconcilable or Incorrect
-    Loan            Need Resolution

     The Office of Management and Budget               Circular No. A-127 requires that Federal
-.   agency’s financial management systems meet the requirements of good financial management.
     These systems shall provide complete. reliable. consistent, timely and useful financial
     management information on government operations to enable management to carry out their
-    fiduciary responsibilities. Despite this requirement, number of problems were identified
     regarding the balances of loans to Morocco.
-
     The audit disclosed number of unexplainable differences between the loan balances as
     recorded in                       and                                          identified 6 1
     direct loans for                  as of June 30,       As of that date. the audit attempted
-
     to reconcile the loan balances as recorded between                           and. either the
     Mission or the               of Morocco/Ministry of Finance                As result of the
-    disparities between                      and the Mission. the        loan account balances
     could be incorrectly stated.

-    Of the 6   loans reported by                        18 of them do not reconcile with the
                 reported loan balances. In eleven of the loans, the                  balances
     exceeded what was reported by the                 by total of X919.956. In the remaining
-    seven cases,                      reported balances lower than what was reported by the
                 by a total of    12,603. (See Appendix III.) Therefore. the
     balances are understated by approximately $592,647.
-
     Evidence was provided to substantiate that the.                   records were correct in the
     majority of these differences described above. Determining the specific causes for all of the
-    differences and the correct balances would have required additional audit work in the Loan
     Management Division of the Office of Financial Management (FM/LMD) in
                           which was beyond the scope of this audit. However. we believe that one
-    of the factors contributing to this situation is that                  does not receive timely
     information from                         regarding the receipt and posting of payments to the
                  accounts.
-

     The Mission receives payment information on U.S. dollar loans much later from FM/LMD
     after it has been paid and posted. If the Mission did receive this              sooner, they
-
     could verify and resolve loan accounting differences between                         and the
                   as they       Moreover. the Mission could act as an               as they have
-    an ongoing relationship with the host government in accounting for the local currency
     reimbursable loans, and was previously involved in accounting for the U.S. dollar loans until
                            according to the Mission. stopped providing immediate posting
-    information several years ago.


-
Although the Mission maintains records of all loan balances. they only receive current
information for the 20 loans which are reimbursable in local currency.
receives this payment information directly from the

As an example of the differences. two of the problem           were PL-480 loans. The
             provided evidence which showed these two            loans were paid off but
                      has an outstanding balance of the equivalent of about $ 190~0201.
Evidence in the          of an advice of credit.        general receipt, and cables to
                     (as described further below)      that proper payment was made by
the host government. but it seems, that                 did not post the payments to their
loan records.      Consequently, the                      PL-480 loan balances for
                  are overstated.

For the two PL-4S0 loans in question.                        shows PL-480 loan number
R-087 having balance of DH                  ($148,221) as of June 30, 1998. The bank advice
of credit is dated December 10,            for DH             to include interest payment.
Therefore, 18 months after the account was credited for payment. it is still shown as
outstanding on the FM/LMD loan ledger            of June 30,        the audit test date. Also,      -
                      shows loan number 608-R-09 (PL-480 loan) as having balance of DH
384.547 ($4 1,799) as of June 30,          However, the advice of credit is dated August 1,
      for DH 400.893 to include interest payment. Thus, although the loan was paid off
year earlier, it was still being shown as outstanding. In both cases, the available evidence
examined during the audit shows the two           described PL-480 loans were fully paid off
                                                                                                    -
and no longer had any outstanding balances, which in effect for these loans, means that the
                      books of record were overstated.
                                                                                                    -
We believe that                     is in position to play a greater role in maintaining current
records of loan balances and keeping                            records reconciled with those of
the Mission and the                 To correct this situation and prevent future disparities will   -
require teamwork effort                                     and                    This problem
of unreconciled balances and differences previously became a serious issue and needed
attention. It was temporarily resolved when in September 1997,                               sent   -
representatives from the Mission and the                to FM/LMD in Washington to reconcile
the balances which was successfully accomplished at that point in time. Nonetheless, a
later at the time of our audit, the problem of unreconciled balances persisted.                     -

The Mission has a direct and immediate relationship with the              which enables them
to resolve unreconciled differences efficiently. However. the Mission’s capability in this area
may not be fully utilized by FM/LMD since                      does not receive payment and
posting data on timely basis for the U.S. dollar reimbursable loans. Exploring the reason
for                       not engaging the Mission on a greater scale was beyond the scope          -
of this audit; therefore, we have decided not to make any formal recommendations. The




                                                4

-

    significant differences described above between                        loan records. and those
-   of                   and              demonstrate the importance and necessity of developing
      better coordinated working relationship between the Mission and                          We
    believe                        should initiate the lead and follow through with an effort to
-   better coordinate loan transaction activities with the Mission. Accordingly, we encourage the
    Mission to continue to work with               in                     by requesting to assume
    a greater role in               for loans and resolving differences in loan balances on
-   continuing basis.

    Were September 30,         balances reported in                         report far
-   appropriations 72X1021 and           properly stated and adequately supported?

    The September 30.          balances reported by                    in the U- 101 report for
-
    appropriations           1 and 72X 1095 were properly stated and adequately supported;
    however. some unliquidated funds need to be deobligated. Although                       was
    already aware of some of the unliquidated obligations and was in the process of reviewing
-
    them for deobligation; this issue warrants additional attention by        management.

-
    Old Budget Plan Codes Should
       Reviewed for

-   The audit found that                   has some old obligations which need to be considered
    for deobligation as required. This is important to avoid the accumulation of excess funds
    which, if not used, can be dsobligated and reobligated for use somewhere else or returned to
-   the Treasury.

    According to section 1311 of the Supplemental Appropriations Act of 1995. as amended, a
-   periodic review of unliquidated obligations is required to determine whether obligations
    continue to remain valid. The act indicates that if obligations do not continue to remain
    valid. the funds should be deobligated in a timely manner.             has established a policy
-   regarding 13 1 reviews which require that: 1) a continuous review of unliquidated obligations
    for both current and prior year        should occur throughout the year: 2) year-end review
    of the system should          3) the obligation and liquidation records should be examined by
-            financial staff in coordination with the officer responsible for budgeting and using
    the funds; and 4) set of work papers should be maintained to document the reviews.
                         Mission Order on 13 11 reviews restates the Supplemental Appropriations
-
    Act and specifies the duties of Mission personnel in these reviews.

    The Mission’s June           U- 101 report identified 35 unliquidated obligations totalling
-
    approximately $48.5 million for appropriation number 72-X 102 1 (developmental assistance).
    Twenty-four of these unliquidated obligations. totalling approximately $17 million or 35%.
-
    are more than five years old, one of which is ten years old. Several factors may contribute
    to these aging obligations. including. premature funding of activities. payment charged to an



                                                   5

incorrect budget plan code. advice       charges     not yet processed. and activities
previously funded which have been cancelled.                management indicated that
they were already in the process of deobligating approximately one million dollars in
obligations identified to be old and unneeded.

Notwithstanding the        and deobligations in process. the above aging description suggests
that additional funds could be deobligated. Accordingly, we suggest that the Mission
continue its review of obligations and deobligate those amounts which are excessive. We
decided not to make formal recommendation on this issue because the Mission is already
aware of much of the excess funding and is taking action in its own interest to identify and
deobligate those amounts which are considered excessive and no longer needed.


Management Comments and Our Evaluation

Although there were no recommendations in the report,                       responded to the
two audit issues. Regarding loan balances.                       stated that the Mission has            -
worked diligently to resolve past differences between Government of Morocco (GOM)
records and those of the Loan Management Division                in                       The
Mission atated that it would be more than willing to assist again in helping to resolve these           -
differences by working an                with the GOM on the behalf of and at the direction
of         D.
                                                                                                        -
Regarding the old budget plan codes that should be reviewed for deobligation; the Mission
stated that as part of the quarterly 1311 review process, the Mission had identified
approximately $2.4 million of funds that should be de-obligated. Approximately half of those            -
funds have been through the Mission’s internal clearance process and have been de-obligated.
The remaining $1.2 million funds are in the process of being reviewed and de-obligated.
                                                                                                        -
The full text of management’s comments on our report are attached as Appendix II.

                                                                                                        -



                                                                                                        -




                                                                                                        -


        AOC represents           charge from outside   Mission          must he         to
             long after       is completed; but                  must             for        incoming   -



                                                 6                                                      -
-

                                                                                    Appendix I
-                                                                                     Page 1 of 2


-

                                       SCOPE AND
                                     METHODOLOGY




    Scope

    We audited                      financial operations related to disbursements, accruals, loans,
    101 reports and related 122 1 reconciliations. We did not assess the overall reliability of the
    Mission Accounting Control System: however, we did test the validity of data related to
    disbursements and accruals. Since our audit work was performed as part of the financial
    statement audit of         at the agency level, for fiscal year     we did          an assessment
    of audit risk at                       The audit was performed in accordance with generally
    accepted government auditing standards and was conducted at                       offices in Rabat.
    Morocco from September 1,           through November 20.


    Methodology

-   This audit was performed as part of the financial statement audit of        for fiscal year
    We             financial audit work at                     one of ten selected sample missions
    worldwide, to enable                    to provide an opinion on the fairness of presentation of
-             financial statements as required by GMRA. The ten Missions were selected using a
    random sample based on statistical sampling techniques.

-   To accomplish the audit objective, we selected transactions randomly using random number
    tables. The sample size was determined by statistical sampling techniques based on confidence
    level of      with tolerable error rate of      5%. Specifically we examined the supporting
-   documentation for:

                   thirty disbursements totalling                which represents approximately 75
                   percent of the total disbursements of               made in the fourth quarter of
                   fiscal year
-
                   twenty accruals totalling             which represents approximately 74 percent
                   of the total accruals of            as of September 30,
                   sixty-one loan balances at June 30,       representing all loans;
                                                                              Appendix I
                                                                                Page 2 of 2

                                                                                               -
              two of sixteen U- 101 reports as of September 30.      and

              the reconciliation of the disbursements with the Regional Administrative
              Management Center (RAMC) in Paris, France for appropriation          and
              72X1 095 that is commonly referred to as the 122 Reconciliation.

To obtain an understanding of the internal controls. we interviewed officials at
and reviewed flow charts, narratives and related documents regarding the financial reporting
processes. Where problems were found, we verified to the extent practical. the causes of the
problems.
                                                                                               -
In addition. we obtained a management representation letter from cognizant Mission officials
containing essential information related to our objective.
                                                                                               -



                                                                                               -



                                                                                               -



                                                                                               -



                                                                                               -



                                                                                               -
-
                                       S T A T & S AGENCY F O R INTERNATIONAL.
                                                          MOROCCO
    .    .
                                                                                                         Box
                                                                                              APO

                                                        15, 1999


        Memorandum




                                  of                Fiscal Year 1998 Financial Data Audit            No.
                          64 1-9940X-F

        This memorandum reflects our comments on the draft report of subject audit

             one of      Missions           for the audit of    USAID FiscaI             Financial
                                       to      bun      to           the             of its
        Although            audit            no                   the Mission        like   respond to     Audit
-       findings

                 Audit



        Did                      have documentation to support tbe disbursements                               fourth
        quarter of          year 1998, accruals at September            at June

                were no findings with respect to     disbursements and    but tho audit        18
             loan balances                               reconciliation        relate U.S. Dollar
        balances       which the Mission has no                                             to    past
        differences            Government of                           and        of the Loan
        Division             in                        Mission would be more than willing to        in
                               differences by working as              with the       On the
            direction of


-                Scptcmbcr 30.1998                         in
                   nod 72X1095                  and adequately supported?
        The                      that the Mission         that     to                 Prior to the audit,
-
                      quarterly         process, Mission identified appruximatdy 32.4 million of
        should be                Approximately half of those      have been through the Mission’s
                  process and                              remaining $1.2 million         under the
                        in the process of being reviewed and             It is the
        other              currently              under                    are       and
        expenditure.
                                       Appendix III


                 Loans with Balances                  -

Different from
                                                      -



                                                      -



                                                      -



                                                      -



                                                      -




                                                      -



                                                      -



                                                      -



                                                      -



                                                      -



                                                      -




                                                      -
